Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 •
Tel No.: (212) 619-4949 • Fax No. (212) 608-3141
84732
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

AFFIDAVIT OF SERVICE

SS:

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 5th day of October 2020 deponent served 3 copies of the within

BRIEF AMICI CURIAE OF THE AMERICAN CIVIL LIBERTIES UNION, THE ACLU OF
PENNSYLVANIA, THE RUTHERFORD INSTITUTE, AND THE R STREET INSTITUTE,
IN SUPPORT OF PETITIONER
upon the attorneys at the addresses below, and by the following method:

BY FEDEX NEXT BUSINESS DAY
Zachary Charles Schauf
Jenner & Block, LLP
1099 New York Ave., NW
Washington, DC 20001
202-637-6379

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on October 5, 2020, pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have been served.

Edward Gutowski
Sworn to me this
October 5, 2020
ALESSANDRA L. KANE
Notary Public, State of New York
No. 0IKA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Case Name: Birt v United States
Docket/Case No. 20-291

